                  DEPf-\R11'vlENT O F H EALTP \!,\!D HUMAN SERVICE::'


              OJ?FICE OF INSPECTOR GENERAL
                                   IV ,\-SHJ;\GTO-: . DC 2020 I




                                     JUN 2 8 2012
TO: 	          George Sheldon, J.D.
               Acting Assistant Secretary
               Administration for Children and Families

                       /S/
FROM:          S"tuart Wright
               Deputy Inspector General
                 for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: ACF Strengthened Its Oversight ofHead Start
           Eligibility in Fiscal Year 2011, OEI-05-11-00140


This memorandum report describes the changes that the Administration for Children and
Families (ACF) made to its oversight of Head Start eligibility between fiscal years
(FY) 2010 and 2011, the extent to which grantees complied with requirements for
keeping eligibility information on file, and the extent to which ACF issued findings of
noncompliance or deficiency when eligibility information was not on file.

SUMMARY

In response to a request from Congressman John Kline, Chairman of the Committee on
Education and the Workforce, we evaluated ACF ' s efforts to strengthen its oversight of
Head Start grantees in response to reported problems with grantees not correctly
verifying children's eligibility.

Overall, we found that ACF strengthened its oversight of eligibility between FY 2010 and
FY 2011. Specifically, ACF altered its FY 2011 triennial reviews to determine whether
grantees kept on file the source documents proving children's eligibility. Further, ACF
began performing unannounced triennial reviews. In addition, ACF promulgated draft
regulations that, once final, will require grantees to keep source documents on file.
Finally, ACF developed an online (i.e. Web) complaint process for the Head Start
program to capture complaints that could help the agency uncover problems with
grantees.

According to data collected during ACF's FY 2011 triennial reviews, 79 percent of Head
Start grantees had complete eligibility information for all sampled children. ACF was not
consistent in issuing findings to grantees missing eligibility information in FY 2011. In
FY 2012, ACF has taken steps to reduce this variation in issuing findings.
Page 2 of 16 – George Sheldon, J.D.


BACKGROUND

This study responds to a congressional request. In May 2010, a Government
Accountability Office (GAO) official testified at a congressional hearing about possible
cases of eligibility fraud at eight Head Start grantees.1 At this hearing, ACF committed to
improving its oversight of Head Start eligibility. Following this hearing, Congressman
Kline, then the Ranking Member of the Committee on Education and Labor, requested
that the Office of Inspector General (OIG) conduct a review of Head Start.

Head Start is an ACF-administered nationwide grant program designed to promote school
readiness in children from low-income families. Head Start grantees provide early
childhood education; medical, dental, and mental health care; and nutritional services.
Grantees may be local public agencies, private organizations, Native American tribes, or
school systems.

In FY 2011, ACF provided $8 billion to serve almost a million children enrolled at Head
Start grantees.2 ACF awards funds to 1,624 Head Start grantees nationally.

Head Start Eligibility Requirements
Children are eligible for Head Start if they are of the appropriate age, and if their families
fall within one of the following eligibility categories:
         the family is homeless,3
         the family is eligible for or receiving public assistance (or is potentially
            eligible in the absence of child care),4
         the family is caring for foster children,5 or
         the family has an income below the poverty line.6, 7

A Head Start grantee may have up to 10 percent of its enrollment consist of children
whose families have incomes above the poverty line. An additional 35 percent of the
grantee’s enrollment may consist of children with family incomes between 100 and




1
  Undercover Testing Finds Fraud and Abuse at Selected Head Start Centers: Hearing Before the United 

States House of Representatives Committee on Education and Labor, 111th Cong. (2010) (Statement of

Gregory D. Kutz, Managing Director, Forensic Audits and Special Investigations, GAO). 

2
  Department of Health and Human Services (HHS), Fiscal Year 2011 Budget in Brief. Accessed at 

http://dhhs.gov/asfr/ob/docbudget/2011budgetinbrief.pdf on June 15, 2012. 

3
  Head Start Act § 645(a)(1)(B)(ii), 42 U.S.C. § 9840. 

4
  Head Start Act § 645(a)(1)(B)(i), 42 U.S.C. § 9840.

5
  45 CFR § 1305.2(l). 

6
  Head Start Act § 645(a)(1)(B)(i), 42 U.S.C. § 9840. 

7
  In FY 2011, the poverty line was $22,350 for a family of four. 76 Fed. Reg. 3637–3638 (Jan. 20, 2011). 



ACF Strengthened Its Oversight of Head Start Eligibility in Fiscal Year 2011 (OEI-05-11-00140)
Page 3 of 16 – George Sheldon, J.D.

130 percent of the poverty line.8 The remaining 55 percent of enrollment must consist of
children from families with incomes below the poverty line.9

Families applying for Head Start services must provide information that allows Head
Start grantees to verify that children are eligible. Families may provide information such
as documents from relevant homeless shelters, documents regarding public assistance,
documents confirming foster care, or income tax forms. Such documents are hereinafter
referred to as “source documents.”

Requirements for Head Start Grantees Verifying Eligibility
Federal regulations require all Head Start grantees to verify eligibility before enrolling
children whose participation is based on family income.10 To verify children’s eligibility,
Head Start grantees must examine all source documents presented by families. Grantees
are not required to keep copies of source documents on file, although ACF has
encouraged grantees to do so.11, 12

Although grantees are not required to keep source documents on file, they are required to
keep forms demonstrating that they verified eligibility for all enrolled children.13
Grantees must indicate on these forms what documents they examined to verify
eligibility. They must sign these forms to attest that children are eligible for Head Start
services. Grantees may use a form that they designed themselves or an ACF-designed
form.14 Hereinafter, forms designed by Head Start grantees and ACF-designed forms will
both be referred to as “verification forms.” See Appendix A for a copy of the
ACF-designed verification form.




8
  Families must live in a designated service area to be eligible for Head Start services. In addition, Head

Start grantees must establish and implement outreach and enrollment policies before enrolling children

from families with incomes between 100 and 130 percent of the poverty line. Head Start Act 

§ 645(a)(1)(B)(iii), 42 U.S.C. § 9840. 

9
  For American Indian or Alaskan Native grantees, up to 49 percent of enrollment may consist of children

from families above the poverty line. 45 CFR 1305.4(b)(3)(iv). In addition, grantees that meet certain

conditions and in areas with populations of 1,000 or less may establish their own criteria for eligibility. 

Head Start Act § 645(a)(2), 42 U.S.C. § 9840. 

10
   45 CFR § 1305.4(c).

11
   ACF, Policy Clarifications—I—Eligibility, Recruitment, Enrollment, and Attendance, OHS-PC-I-009, 

April 23, 2007. Accessed at 

http://eclkc.ohs.acf.hhs.gov/hslc/standards/Policy%20Clarifications%20and%20FAQs on June 18, 2012. 

12
   ACF, Income Eligibility for Enrollment in Head Start and Early Head Start Programs, 

ACF-PI-HS-10-02, May 10, 2010. Accessed at 

http://eclkc.ohs.acf.hhs.gov/hslc/standards/PIs/2010/resour_pri_002_051010.html on June 15, 2012. 

13
   45 CFR § 1305.4(e).

14
   ACF, Income Eligibility for Enrollment in Head Start and Early Head Start Programs, 

ACF-PI-HS-10-02, May 10, 2010. Accessed at 

http://eclkc.ohs.acf.hhs.gov/hslc/standards/PIs/2010/resour_pri_002_051010.html on June 15, 2012. 



ACF Strengthened Its Oversight of Head Start Eligibility in Fiscal Year 2011 (OEI-05-11-00140)
Page 4 of 16 – George Sheldon, J.D.

ACF Oversight of Head Start Eligibility
Federal law requires ACF to perform periodic monitoring and oversight of Head Start
grantees.15 ACF determines through onsite visits whether Head Start grantees abide by
eligibility requirements. Onsite reviews should occur for first-year grantees, for
operating grantees (on a triennial basis), for grantees that are found to be out of
compliance, and a study—known as the Erroneous Payments Study—identifying
improper payments. ACF further oversees grantees through yearly risk management
meetings.

Triennial Reviews. ACF conducts standardized, onsite reviews for each grantee once
every 3 years. Known as “triennial reviews,” these reviews evaluate whether grantees are
complying with a range of rules and regulations.16 In FY 2011, 537 grantees—roughly
one-third of the total of 1,624 grantees—received triennial reviews.

Generally, ACF sends Head Start grantees written notification 30 days prior to the date of
an upcoming triennial review. However, ACF has the authority to perform unannounced
reviews, including unannounced triennial reviews.17

While onsite, triennial reviewers complete an electronic, standardized guide that aids
them in evaluating different areas of grantees’ performance, such as eligibility
verifications, financial management, and children’s health.18 Reviewers record the results
of their examination in ACF’s review software. When evaluating grantees’ performance
in verifying eligibility, reviewers examine verification forms and source documents for a
sample of children enrolled at each Head Start grantee. Reviewers choose a separate
sample for each grantee, based on the number of children enrolled at the grantee.

ACF reviews the data collected during triennial reviews for each grantee and determines
whether grantees are compliant with Federal regulations. If ACF determines that
grantees are out of compliance with Federal regulations, it issues findings. There are two
types of findings. The more severe type is a “finding of deficiency,” hereinafter referred
to as a deficiency.19 The less severe type—a “finding of noncompliance,” hereinafter
referred to as a noncompliance—is issued if a grantee is not compliant with Federal
regulations but its infraction does not warrant a deficiency. In FY 2009, the latest year
with data available, ACF issued deficiencies to 5 percent of grantees reviewed. That


15
   Head Start Act § 641A(c), 42 U.S.C. § 9836A. 

16
   Ibid. 

17
   Head Start Act § 641A(c)(1)(D), 42 U.S.C. § 9836A. 

18
   Triennial reviewers may include ACF staff and contracted staff with experience in early education. 

19
   A deficiency is legally defined as a systemic or substantial material failure of a grantee in specific areas

of performance, a systemic or material failure of the governing body of any grantee to fully exercise its 

legal and fiduciary responsibilities, or an unresolved area of noncompliance. Grantees may receive a

deficiency in areas of performance involving: health, safety or civil rights; denial of parental roles and 

responsibilities related to program operations; failure to comply with standards on early childhood

development and health services, family and community partnerships, or program design and management;

misuse of Federal funds; loss of legal status or financial viability; and failure to meet any other Federal or 

State requirement and unwillingness or inability to correct. Head Start Act § 637(2), 42 U.S.C. § 9832. 



ACF Strengthened Its Oversight of Head Start Eligibility in Fiscal Year 2011 (OEI-05-11-00140)
Page 5 of 16 – George Sheldon, J.D.

same year, ACF issued noncompliances to 75 percent of grantees reviewed. 20
Hereinafter, we will collectively refer to deficiencies and noncompliances as “findings.”

ACF uses “findings letters” to notify all grantees of its assessment of their compliance.
These letters outline grantees’ strengths and weaknesses, including any findings. These
letters also describe the specific Federal regulations that are related to each finding. After
sending findings letters, ACF may perform followup reviews of grantees that were out of
compliance to determine whether the grantees corrected the problems that resulted in
findings.

Erroneous Payments Study. ACF conducts the Erroneous Payments Study each year to
identify a national rate of improper payments to Head Start grantees. ACF defines the
national rate of improper payments as payments to grantees that have “more than the
allowed percentage of children enrolled whose family income exceeds the eligibility
guidelines.”21 In FY 2011, Head Start’s national error rate was 0.6 percent, amounting to
$43 million in improper payments.22 This was down from the previous year’s error rate
of 1.7 percent and overpayment amount of $123 million.23

Like triennial reviews, ACF’s Erroneous Payments Study consists of standardized onsite
reviews. ACF chooses grantees from a stratified sample of all Head Start grantees
receiving triennial reviews that year. The Erroneous Payments Study takes place
concurrently with the triennial reviews, but uses a different protocol, different sampling
methodology, and different reviewers.

Risk Management Meetings. Staff at ACF regional offices conduct an annual risk
management meeting with each Head Start grantee to discuss strengths and weaknesses.24
These meetings include discussions about children’s eligibility. ACF may hold these
meetings in person or over the phone.

ACF’s Response to GAO’s Investigation
In FY 2010, GAO found that employees at 8 of 13 Head Start grantees disregarded
portions of applicants’ documents so that families would appear to be below the poverty
line.25 In response to the GAO investigation, ACF made a series of promises to
strengthen its oversight of eligibility.




20
   ACF, Report to Congress on Head Start Monitoring, FY 2009, p. 18.

21
   HHS, FY 2011 Agency Financial Report, November 2011, p. III-33. Accessed at 

http://www.hhs.gov/afr/2011afr.pdf on February 8, 2012. 

22
   Ibid. 

23
   Ibid. 

24
   ACF, Head Start Risk Management Process, ACF-IM-HS-08-06, February 5, 2008. Accessed at 

http://www.acf.hhs.gov/programs/ohs/policy/im2008/acfimhs_08_06.html on March 23, 2012. 

25
   GAO, Undercover Testing Finds Fraud and Abuse at Selected Head Start Centers, GAO-10-1049,

September 2010. 



ACF Strengthened Its Oversight of Head Start Eligibility in Fiscal Year 2011 (OEI-05-11-00140)
Page 6 of 16 – George Sheldon, J.D.

ACF stated that it would strengthen its existing oversight processes. This included
performing “a top-to-bottom review” of triennial reviews, the Erroneous Payments Study,
and risk management meetings.26

ACF also stated that it would use unannounced triennial reviews to better determine how
Head Start grantees operate on a daily basis.27 According to ACF staff, 10 percent of
triennial reviews in FY 2011 were to be unannounced.

Further, ACF committed to developing new processes to improve oversight, including
developing an online complaint process for Head Start (hereinafter referred to as a
“Web-based hotline”) and an Office of Program Integrity.28 Established in
September 2010, ACF’s agencywide Office of Program Integrity is intended to strengthen
internal procedures and improve financial management in all ACF-funded programs,
including Head Start. This Office of Program Integrity did not work on the Head Start
program in FY 2011.

In addition, ACF stated that it would develop new guidance and regulations regarding
eligibility verification. Following the congressional hearing, ACF issued a program
instruction encouraging Head Start grantees to keep source documents for eligibility
verifications on file.29 In addition, ACF promulgated draft regulations regarding income
eligibility.30

Related Reports
In 2006, OIG issued a report on enrollment levels among Head Start grantees.31 OIG
found that almost all Head Start grantees had high enrollment levels. OIG also found that
Head Start grantees reported that it was difficult to fill enrollment slots with children
whose families were below the poverty line. OIG recommended that ACF address
challenges to maintaining full enrollment. Since the report’s release, ACF has taken steps
to meet this recommendation.

GAO has produced two reports identifying weaknesses in ACF’s triennial reviews. In
2005, GAO expressed concerns that triennial reviewers may not be rigorously adhering to
the review guide, and may not achieve consistent results.32 In 2008, GAO followed up on



26
   Examining GAO’s Review of Selected Head Start Grantees: Hearing Before the United States House of

Representatives Committee on Education and Labor, 111th Cong. (2010) (Statement of Carmen Nazario, 

Assistant Secretary for Children and Families, HHS). 

27
   Ibid. 

28
   Ibid. 

29
   ACF, Income Eligibility for Enrollment in Head Start and Early Head Start Grantees, 

ACF-PI-HS-10-02, May 10, 2010. Accessed at 

http://eclkc.ohs.acf.hhs.gov/hslc/standards/PIs/2010/resour_pri_002_051010.html on March 23, 2012.

30
   76 Fed. Reg. 14841–14854 (Mar. 18, 2011). 

31
   OIG, Enrollment Levels in Head Start, OEI-05-06-00250, April 2007. 

32
   GAO, Comprehensive Approach to Identifying and Addressing Risks Could Help Prevent Grantee 

Financial Management Weaknesses, GAO-05-176, February 2005.



ACF Strengthened Its Oversight of Head Start Eligibility in Fiscal Year 2011 (OEI-05-11-00140)
Page 7 of 16 – George Sheldon, J.D.

its previous report, finding that ACF was implementing new processes that should
improve the consistency of triennial reviews.33

METHODOLOGY

Scope
This study looked at changes to ACF’s oversight of eligibility between FY 2010 and
FY 2011. By analyzing data from this timeframe, we can determine what changes
occurred in ACF’s oversight of eligibility immediately after the May 2010 congressional
hearing where a GAO official testified.

Although ACF performs other types of reviews, we analyzed data only from triennial
reviews and the yearly Erroneous Payments Study. We did not analyze data from other
types of reviews, such as followup reviews or reviews for first-year grantees. Because
ACF does not always use its full standardized review guide when performing followup
reviews, such reviews may not necessarily evaluate how grantees verify eligibility. ACF
performed only six first-year reviews in FY 2011, so we believe that excluding these few
reviews does not significantly affect our results.
This study did not analyze changes that ACF may have made to its oversight processes
unrelated to eligibility, such as new regulations regarding grant renewal.

Data Collection and Analysis
We reviewed: (1) documents including protocols, guides, relevant laws and regulations,
and findings letters; (2) ACF’s national review schedule; (3) structured interviews with
Head Start grantees and ACF; (4) triennial review data; and (5) complaint data from the
Web-based hotline.

Changes to ACF’s Oversight of Eligibility
Triennial Review. We collected and analyzed FY 2010 and FY 2011 standardized review
guides, other guidance, and national schedules, as well as interview responses, to
determine whether and how ACF made changes to triennial reviews.

We calculated the percentage of unannounced triennial reviews in FY 2010 and FY 2011.
To do this, we analyzed ACF’s national schedule of reviews and documents identifying
grantees that received an unannounced triennial review. We called all Head Start
grantees that ACF identified as having received unannounced triennial reviews to
confirm that these grantees did not receive advance written notifications with the dates of
their reviews. Of these grantees, only one grantee stated that it received advance
notification before the triennial review was conducted. For the purpose of our analysis,
we considered this grantee to have received an announced triennial review.




33
  GAO, A More Comprehensive Risk Management Strategy and Data Improvements Could Further
Strengthen Program, GAO-08-221, February 2008.


ACF Strengthened Its Oversight of Head Start Eligibility in Fiscal Year 2011 (OEI-05-11-00140)
Page 8 of 16 – George Sheldon, J.D.

Erroneous Payments Study. We collected and analyzed FY 2010 and FY 2011 protocols,
guides, data dictionaries, and interview responses to determine whether and how ACF
changed its Erroneous Payments Study.

Web-based Hotline. We collected and analyzed data from the complaint-tracking
database that ACF implemented. We collected and analyzed all data since the
Web-based hotline was developed in June 2010. After identifying all of the
eligibility-related complaints that ACF received via this hotline, we analyzed how
frequently ACF investigated these complaints and what actions it took to do so.

Risk Management Meetings. We collected and analyzed FY 2010 and FY 2011 risk
management protocols and ACF interview responses to determine whether and how ACF
changed its risk management meetings.

Assessing Grantee Compliance with Eligibility Requirements and Related Findings
We reviewed triennial review data for the 533 Head Start grantees that received such
reviews in the first three quarters of FY 2011 (i.e., from October 1, 2010, to
June 30, 2011). During the fourth quarter of FY 2011, ACF performed only 4 triennial
reviews, for an annual total of 537 such reviews.

Of these 533 grantees, we analyzed triennial review data for 530 grantees. We removed
three grantees from our analysis: one because we did not receive the triennial review
data due to an administrative error, and two because ACF was still in the process of
issuing findings letters to these grantees at the time of our review. The triennial review
data for the remaining 530 grantees contained eligibility information for 49,436 sampled
children.

We determined the number and percentage, by grantee, of sampled children with
complete eligibility information on file. We considered a grantee to have complete
eligibility information if the verification forms for each sampled child: (1) were present
in the file and signed by a grantee employee, (2) indicated which documents were
reviewed to verify eligibility, and (3) indicated the child’s eligibility category. We
considered a grantee to be missing eligibility information if it was missing information in
any of these components for at least one child.

For the sampled children, we determined what types of source documents—such as pay
stubs or W-2 forms—were on file, and how frequently grantees kept these documents on
file. We also determined the number and percentage of source documents kept on file for
sampled children at each Head Start grantee.

We collected and analyzed all findings letters for grantees missing eligibility information
for at least one child. We determined and reviewed the instances when ACF issued a
finding related to missing eligibility information. When written deliberations between
ACF headquarters staff and triennial reviewers about whether to issue a finding were
available, we reviewed those deliberations.



ACF Strengthened Its Oversight of Head Start Eligibility in Fiscal Year 2011 (OEI-05-11-00140)
Page 9 of 16 – George Sheldon, J.D.

We determined the average percentage of incomplete eligibility information on file
among all grantees and among grantees that were issued findings. To determine the
relationship between missing eligibility information and findings, we analyzed how
frequently ACF issued findings to grantees at varying thresholds of missing eligibility
information.

Although we combine both kinds of findings—noncompliance and deficiency—in our
analysis, ACF rarely issued deficiencies to grantees missing eligibility information,
issuing a deficiency to only one such grantee. The remaining grantees received
noncompliances.

Limitations
We relied on data collected by triennial reviewers. We did not independently verify these
data.

We also did not independently verify complaints received through the Web-based hotline.
We did not speak with the regional office staff who investigated these complaints or
obtain corroborating documentation outside of the complaint-tracking database.
Nonetheless, we were able to determine whether complaints were related to eligibility
and whether ACF followed up on these complaints.

We analyzed and reported on data from children sampled during triennial reviews in the
first three quarters of FY 2011. We did not project our results to all enrolled children.
During triennial reviews, ACF collects information from a sample of children’s files at
each Head Start grantee. However, ACF does not use the results from this sample to
project to the universe of all children enrolled at that grantee. When determining whether
a grantee is compliant with eligibility laws, ACF relies on eligibility information
collected from only this sample of children’s files.

We could not analyze whether grantee employees disregarded any source documents.
Any documents intentionally disregarded would likely not be on file, meaning that
neither triennial reviewers nor OIG would see these documents when reviewing a sample
of children’s files.

Standards
This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation issued by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

In FY 2011, ACF strengthened its oversight of Head Start grantees in response to
reported problems with grantees verifying eligibility
In response to GAO’s investigation of eight Head Start grantees that disregarded
families’ source documents, ACF strengthened its oversight of eligibility. ACF changed




ACF Strengthened Its Oversight of Head Start Eligibility in Fiscal Year 2011 (OEI-05-11-00140)
Page 10 of 16 – George Sheldon, J.D.

many of its preexisting oversight processes, including triennial reviews and the Erroneous
Payments Study. ACF did not make any changes to the risk management meetings.

ACF improved oversight of grantees through new actions. ACF promulgated draft
regulations and developed a Web-based hotline to receive complaints.

ACF took steps to strengthen its oversight of eligibility by focusing on source documents.
At the May 2010 hearing on potential eligibility fraud, ACF committed to strengthening
its existing oversight in response to GAO’s testimony. In FY 2011, ACF began
examining source documents in triennial reviews and the Erroneous Payments Study.
Even though grantees were not required in FY 2011 to maintain source documents,
examining source documents gave ACF a more complete understanding of how grantees
were determining children’s eligibility. ACF also issued draft regulations that would
require grantees to keep source documents on file in the future. This would allow ACF to
use source documents to perform its own assessment of children’s eligibility.

In FY 2011, ACF prompted triennial reviewers to examine source documents and record
whether grantees kept source documents on file. In addition, reviewers recorded whether
verification forms identified which source documents had been initially reviewed by
grantee staff to determine eligibility. ACF did not collect this information in FY 2010.

ACF also instructed triennial reviewers to interview grantee employees and parents of
Head Start children to discover what source documents were provided as proof of
eligibility. By interviewing these individuals, triennial reviewers may better understand
what source documents were provided at the time the child was enrolled.

In addition, ACF added a question to its guide for the Erroneous Payments Study
regarding the location of source documents. In both FY 2010 and FY 2011, ACF
instructed reviewers for the Erroneous Payments Study to record which source
documents were kept on file. Beginning in FY 2011, ACF prompted reviewers to record
the location of source documents. Due to privacy concerns, some grantees may not keep
source documents such as W-2 forms on file alongside the required verification forms.
Without the prompt, reviewers for the Erroneous Payments Study in the past might have
overlooked optional source documents kept in a separate location.

In March 2011, ACF promulgated draft regulations. Once final, these regulations will
increase the evidence that grantees must keep on file to support their eligibility
determinations. These regulations would require grantees to keep source documents on
file for all children. They would also require grantees to collect and retain signed
statements from Head Start families attesting that the families had submitted complete
and accurate eligibility information. The regulations would also require grantee staff to
attend training on verifying eligibility, including how to identify eligibility fraud and how
to verify source documents prior to enrollment.

The regulations should increase the number of grantees keeping source documents; in the
absence of such regulations, not all grantees kept source documents on file for all


ACF Strengthened Its Oversight of Head Start Eligibility in Fiscal Year 2011 (OEI-05-11-00140)
Page 11 of 16 – George Sheldon, J.D.

children. Almost a third of grantees did not keep source documents on file for any
children sampled in the first three quarters of FY 2011. Only 13 percent of grantees kept
source documents on file for all children sampled. See Chart B-1 in Appendix B for a
breakdown showing different types and percentages of source documents kept on file in
the first three quarters of FY 2011.

ACF began performing unannounced triennial reviews. Following the congressional
hearing about potential eligibility-related fraud, ACF promised to conduct unannounced
triennial reviews. ACF reviewers began performing such reviews in July 2010, 2 months
after the hearing. Two percent of FY 2010 triennial reviews were unannounced; all were
conducted in the final quarter of FY 2010. In FY 2011, 11 percent of triennial reviews
were unannounced.

ACF investigated complaints related to eligibility that were submitted through its new
Web-based hotline. Following the congressional hearing, ACF created a Web-based
hotline for complaints. ACF advertised this Web-based hotline through an email to all
Head Start grantees and 14,000 subscribers to Head Start-related email updates. By
November 2011, ACF had received 289 complaints through its Web-based hotline.

Of the 289 complaints, 16 were related to eligibility. These 16 complaints implicated
15 separate grantees. These complaints were related to grantees and parents disregarding
source documents, grantees enrolling “over-income” children in Head Start, or grantees
not prioritizing the neediest children for enrollment.

After investigation, ACF closed all Web-based hotline complaints related to eligibility.
For all 16 complaints, ACF did not find any evidence of wrongdoing.

ACF regional staff used a variety of methods to investigate the 16 Web-based hotline
complaints related to eligibility. In five cases, ACF regional staff met with grantee
employees onsite to review and discuss eligibility practices and policies. In one case,
ACF regional staff performed a desk review of eligibility information. In seven cases,
ACF regional staff had conversations with employees at the grantees in question. In
three cases, ACF regional staff did not document specific actions taken to investigate
these complaints.

ACF’s triennial reviews found that most grantees had complete eligibility
information for all children sampled
Most grantees had complete eligibility information for all children sampled. Specifically,
79 percent of grantees (417 out of 530) had required eligibility information for all
children sampled in the first three quarters of FY 2011. Grantees were considered to
have complete eligibility information if the verification forms for each sampled child:
(1) were present and signed by grantee employees, (2) indicated which documents the
grantee employees examined to verify the child’s eligibility, and (3) indicated the child’s
eligibility category.




ACF Strengthened Its Oversight of Head Start Eligibility in Fiscal Year 2011 (OEI-05-11-00140)
Page 12 of 16 – George Sheldon, J.D.

The 21 percent of grantees that were missing eligibility information were usually missing
information for few children sampled. This group of grantees consisted of 113 of the
530 grantees that received a triennial review in the first three quarters of FY 2011.

These 113 grantees were missing eligibility information for an average of 8 percent of
children sampled. The median percentage of information missing was 4 percent. The
range was less than 1 percent to 100 percent.34 Only 3 percent of all grantees were
missing information for 11 percent or more of children sampled. Chart 1 shows a
breakdown of grantees by percentage of missing information.
Chart 1: Percentage of Missing Eligibility Information Among Grantees




                                                                                  Complete eligibility
                               3%                                                 information (n=417)

                  18%


                                                                                  Missing eligibility information
                                                                                  in 1-10% of children's files
                                                                                  (n=96)



                                               79%                                Missing eligibility information
                                                                                  in 11-100% of children's files
                                                                                  (n= 17)



Source: OIG analysis of triennial review data from the first three quarters of FY 2011.


ACF was not consistent in issuing findings to grantees missing eligibility
information
ACF did not issue findings to all grantees missing eligibility information. After
reviewing grantees’ data collected during triennial reviews, ACF issued findings to only
20 of the 113 grantees missing eligibility information. Of the 20 grantees that received a
finding, 8 had missing eligibility information for 10 percent or less of sampled children.
The remaining 12 grantees were missing eligibility information for 11 percent or more of
sampled children.

ACF did not always issue findings to all grantees missing similar amounts of information.
For example, ACF issued a finding to one grantee missing information for 18 percent of

34
   Only one grantee was missing eligibility information for 100 percent of children sampled. This grantee
lacked grantee signatures on all of the required verification forms, but otherwise the required forms were
present and had complete eligibility information.


ACF Strengthened Its Oversight of Head Start Eligibility in Fiscal Year 2011 (OEI-05-11-00140)
Page 13 of 16 – George Sheldon, J.D.

sampled children. However, ACF did not issue a finding to a grantee missing
information for 19 percent of sampled children.

Despite some inconsistency in issuing findings, ACF usually issued findings to grantees
that were missing higher percentages of eligibility information. ACF issued findings to
the majority (12 of 17) of the grantees missing information for 11 percent or more of
sampled children. However, ACF issued findings to few (8 of 96) grantees missing
information for 10 percent or less of sampled children. In FY 2011, ACF did not set a
percentage of missing eligibility information that would trigger the issuance of a finding.
However, in practice a threshold emerged, as ACF usually issued findings to grantees
missing information in 11 percent or more of children’s files. Further, ACF staff reported
developing a threshold for issuing findings in FY 2012. See Chart 2 for a breakdown of
grantees by percentage of missing information.

Chart 2: Findings by Percentage of Missing Eligibility Information

                            Received Finding                           Did Not Receive Finding




                                                                                                 20%
                                                                                    33%


                                    90%                     82%
           100%
                                                                                                 80%
                                                                                    67%


                                    10%                     18%

        1% or less                  2-5%                   6-10%                  11 -25%    More than 25%
          n=32                      n=42                    n=22                   n=12           n=5

Source: OIG analysis of triennial review data from the first three quarters of FY 2011.




ACF Strengthened Its Oversight of Head Start Eligibility in Fiscal Year 2011 (OEI-05-11-00140)
Page 14 of 16 – George Sheldon, J.D.


CONCLUSION

In response to a congressional request, we conducted a review of ACF’s monitoring and 

oversight of Head Start eligibility. ACF strengthened its oversight of eligibility in 

FY 2011 by improving its triennial reviews and its Erroneous Payments Study. ACF also 

promulgated draft regulations regarding eligibility and established a Web-based hotline 

for complaints. 


Once final, the regulations regarding eligibility will increase the evidence that grantees

must keep on file to support their eligibility verifications. The regulations would require 

grantees to keep source documents on file for all children. In addition, the regulations 

would require grantees to collect and retain statements signed by Head Start families. 

The statements would attest that the families had submitted complete and accurate 

eligibility information. 


Overall, in FY 2011 grantees largely kept required eligibility information. However, 

ACF was not consistent in issuing findings to grantees missing eligibility information. 

ACF has already taken steps to address this slight variability in issuing findings. In 

FY 2012, ACF staff reported setting a threshold for issuing findings related to missing 

eligibility information. By doing so, ACF is making an effort to increase consistency in 

issuing findings to grantees. 


This memorandum report is being issued directly in final form because it contains no 

recommendations. If you have comments or questions about this report, please provide 

them within 60 days. Please refer to report number OEI-05-11-00140 in all 

correspondence. 





ACF Strengthened Its Oversight of Head Start Eligibility in Fiscal Year 2011 (OEI-05-11-00140)
Page 15 of 16 – George Sheldon, J.D.


APPENDIX A




ACF Strengthened Its Oversight of Head Start Eligibility in Fiscal Year 2011 (OEI-05-11-00140)
Page 16 of 16 – George Sheldon, J.D.
  APPENDIX B

Chart B-1: Types and Percentages of Source Documents Kept on File



            30

                        25
                                    22




                                                10
                                                            8
                                                                        6
                                                                                    5           5

                                                                                                            1              1




Source: Office of Inspector General analysis of triennial review data from the first three quarters of fiscal year 2011.
Grantees may have multiple source documents on file for a child; as a result, percentages exceed 100.




ACF Strengthened Its Oversight of Head Start Eligibility in Fiscal Year 2011 (OEI-05-11-00140)
